Memorandum

To:            Secretary Salazar

From:          Earl E. Devaney
               Inspector General

Subject:       Assessment Report on Directives for Reforming Law Enforcement in the
               Department of the Interior

       Attached please find the third report by the Office of Inspector General (OIG) detailing
the progress the Department of the Interior (DOI) has made in implementing the 2002 Secretarial
Directives for reform of DOI law enforcement programs.

        In 2002 the OIG concluded a comprehensive assessment of law enforcement in DOI. We
found significant problems throughout DOI's law enforcement programs and identified
improvements needed in the leadership, organization, control, and accountability. As a result of
this assessment, then-Secretary Norton issued 25 Secretarial Directives to implement needed
reforms.

         We have monitored the progress of the reforms with formal status reports, and a series of
assessments. The results of this most recent assessment indicate that 10 of the 25 directives are
still not fully implemented, more than six years after they were made. Implementation of these
remaining directives is essential to furthering the progress that has been made in DOI's law
enforcement programs, and, at last, making the disquieting state of disorder we found in 2002 a
thing of the past.

       If you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745.
                                         TABLE OF CONTENTS
Introduction ..................................................................................................................................1
    Background ............................................................................................................................................ 1
    Objective and Methodology ................................................................................................................ 2

Results in Brief .............................................................................................................................4

Directives and Findings ..............................................................................................................6
    Directive 1 – Deputy Assistant Secretary for Law Enforcement and Security ............................. 6
    Directive 2 – Emergency Protocols and Procedures......................................................................... 6
    Directive 3 – Office of Law Enforcement and Security Staffing ..................................................... 7
    Directive 4 – Law Enforcement Policies ............................................................................................. 8
    Directive 5 – Budget Coordination ..................................................................................................... 9
    Directive 6 – Senior Bureau Law Enforcement Directors .............................................................. 10
    Directive 7 – Line Authority for Special Agents ............................................................................. 10
    Directive 8 – Non-Law Enforcement Manager Accountability .................................................... 11
    Directive 9 – Line-Item Budgeting .................................................................................................... 11
    Directive 10 – Office of National Drug Control Policy Funding .................................................. 11
    Directive 11 – Staffing Models and Methodologies ....................................................................... 12
    Directive 12 – Staffing Shortages Impact on Officer Safety........................................................... 13
    Directive 13 – Seasonal and Collateral Duty Officers .................................................................... 13
    Directive 14 – Security Policy and Oversight .................................................................................. 14
    Directive 15 – Main Interior Building Security Management ....................................................... 15
    Directive 16 – Bureau Security Managers ........................................................................................ 15
    Directive 17 – Emergency Preparedness .......................................................................................... 16
    Directive 18 – Internal Affairs Investigations.................................................................................. 16
    Directive 19 – Incident Reporting ..................................................................................................... 17
    Directive 20 – Law Enforcement Workforce Diversity .................................................................. 17
    Directive 21 – Background Investigation Process........................................................................... 18
    Directive 22 – Training for Law Enforcement Officers .................................................................. 18
    Directive 23 – Centralized Records System ..................................................................................... 19
    Directive 24 – Performance Goals ..................................................................................................... 20
    Directive 25 – Interagency Cross Delegation Agreement .............................................................. 20

Recommendations......................................................................................................................21

Appendices ..................................................................................................................................22
    Appendix 1 – Status of the Secretary’s Directives .......................................................................... 22
    Appendix 2 – Office of Law Enforcement and Security Organization Chart ............................. 23
    Appendix 3 – Office of Emergency Management Organization Chart ....................................... 24
                              INTRODUCTION
This report presents the results of our third follow-up review on the Department’s progress
in implementing the Secretary’s July 2002 directives for law enforcement reforms. The
progress regarding the implementation of the directives should not be viewed, or used, as a
gauge on how effective the law enforcement program(s) are; it simply provides an
overview of their completion of specific directives.


    Background

In March 2001, at the request of the Secretary, we conducted an assessment of the
Department of the Interior’s law enforcement activities, including the following programs:
   • Bureau of Indian Affairs (BIA)
   • Bureau of Land Management (BLM)
   • Bureau of Reclamation (BOR)
   • Fish and Wildlife Service (FWS)
   • National Park Service (NPS)
   • National Wildlife Refuge System (NWRS)
   • U.S. Park Police (USPP)

Our January 2002 assessment report, Disquieting State of Disorder: An Assessment of
Department of the Interior Law Enforcement, concluded, in part, that the Department had to
take significant steps to professionalize the bureau law enforcement programs, improve
officer safety, and provide the Secretary and external law enforcement programs one
central point of contact and office to coordinate department-wide emergency responses.
The report contained 25 recommendations for the Department and the bureaus to improve
the leadership, organization, control, and accountability of Department law enforcement,
security, and emergency management programs.

In July 2002, in response to our report, the Law Enforcement Review Panel (Review Panel),
created by the Secretary, issued a report titled Law Enforcement at the Department of the
Interior, Recommendations to the Secretary for Implementing Law Enforcement Reforms. The
Secretary approved the Review Panel’s report and directed that the report’s
recommendations be implemented.

In 2003, we conducted a follow-up assessment to determine the progress that the
Department, its Office of Law Enforcement, Security and Emergency Management 1
(OLESEM), and the bureaus had made implementing the Secretary’s directives. We

1
 OLESEM was originally named the Office of Law Enforcement and Security. Its name was changed in June
2006 to reflect its duties relating to emergency management.



                                                  1
concluded that the Department, OLESEM and the bureaus had made limited progress in
the timely implementation of corrective actions. We also noted that serious efforts were
required to fully implement all of the directives.

In 2006, we conducted a second follow-up review to assess the Department and bureaus’
progress in implementing the Secretary’s directives since our 2003 review. We concluded
that Department and bureaus had continued to improve and that a number of the
Secretary’s directives had been successfully implemented. However, the Department and
bureaus continued to struggle in implementing more than half of the directives nearly four
years after they were issued.

Over the past several years, our office has been committed to assessing law enforcement
and security programs throughout the Department. In that regard, in addition to the noted
follow-up status reports on the implementation of the Secretary’s directives, our office has
conducted other critical law enforcement and security reviews. We have reported on the
dismal conditions of Indian Country Jails, the ineffective leadership, management and
communication with the Fish and Wildlife Service law enforcement program and the
United States Park Police, serious security lapses and management of National Park Service
Icon protection, and the need for improvement of the Bureau of Reclamation Dam Security
Program.


 Objective and Methodology

The objective of this review was to evaluate the progress that Department law enforcement,
security, and emergency management programs made in implementing the Secretary’s
directives since our last review, and to determine the effectiveness of OLESEM’s actions
and oversight of these Department programs.

To accomplish our objective, we interviewed law enforcement, security, and emergency
management officials, from the Department and the bureaus, as well as other Departmental
officials involved with these programs. We also reviewed numerous reports and
documents.

Our review was limited to determining the level of compliance that the Department and
bureaus have made in implementing these directives. While we also reviewed OLESEM’s
general oversight of Department law enforcement, security, and emergency management
programs, we did not assess the overall effectiveness of the individual programs we
reviewed.

Using the information obtained through interviews and document reviews, we rated the
implementation status of each directive into one of three categories:




                                             2
•   Implemented – Actions taken have fulfilled the intent of the directive.

•   Moderate Progress – Actions taken demonstrate continued movement towards full
    implementation of the directive.

•   Inadequate Progress – Actions taken have substantially failed to adequately address
    implementation of the directive.




                                           3
                         RESULTS IN BRIEF
Our review found that a majority of the Secretary’s law enforcement directives have been
successfully implemented and have effectively raised the prominence and safety of the
Department’s law enforcement, security, and emergency management programs. OLESEM
has developed a centralized Departmental office that has helped to fill the void of
Departmental leadership, coordination, and accountability that was our main concern in
the 2002 assessment. OLESEM’s leadership role has undoubtedly assisted in elevating the
professionalism realized by all bureau law enforcement programs since 2002. In addition,
OLESEM has provided the intended, and much needed one-stop shop for both the
Secretary and external law enforcement programs, to include the Department of Homeland
Security.

As a result of achieving this central leadership role, OLESEM’s responsibilities and duties
have increased since the issuance of the Secretary’s directives and often times other
priorities have impacted their ability to focus on completing and implementing the
remaining directives. OLESEM must continually deal with a plethora of Homeland
Security Presidential Directives and Executive Orders that were not present or envisioned
when the Secretary’s directives were established. In addition, the Secretary directed an
increased focus and responsibility for border security and drug initiatives, as well as
directing OLESEM to assist and correct major deficiencies found with the management of
the United States Park Police by providing staff, as well as considerable planning time.

While Department and bureau law enforcement and security programs have come a long
way over the past seven years, there are still several directives that have yet to be fully
implemented. Of those directives that remain to be implemented, three have made, what
we consider to be, inadequate progress towards implementation.

One of the directives that OLESEM has failed to implement to date is the development and
implementation of a Department-wide incident reporting system. The development of this
major undertaking has taken the quintessential one step forward and two steps back.
There have been continued deficiencies with contract and program management from its
inception by NPS as well when taken over by OLESEM. Continued differences among
OLESEM and the bureaus over project design and funding have also hampered progress.

The National Business Center (NBC) is responsible for security at the Main Interior
Building. One of the Secretary’s directives required NBC to augment its security staff with
an appointment of a professional security manager. In our 2006 status report we noted that
the Chief of Security had a limited security background and training. Since that report,
NBC has not provided the Chief of Security with any training to obtain professional
certification or made any other effort to improve his qualifications.



                                              4
We also found that OLESEM’s progress in developing and issuing department-wide
policies and procedures to be inadequate. We were told that developing and issuing the
required policies have been delayed for a variety of reasons, to include staff being
redirected for higher priority assignments, a failure of several bureaus to provide the
required detailed positions to OLESEM, as well as the difficulty of getting policy through
the Solicitor’s office and the Department’s cumbersome review and surname process. We
find none of these explanations to be sufficiently convincing to account for the sustained
failure to provide timely and effective policy implementation.

Underscoring OLESEM’s inability to develop policy and provide proper oversight is the
argument of some bureau law enforcement managers that OLESEM has not appropriately
allocated its staff according to needs and priorities. This perception has impacted the
bureaus willingness to comply with providing directed detail positions or funding for
positions to OLESEM.

The Internal Affairs Branch (IAB) within OLESEM operates within a cloud of ambiguity
and has never fully filled its intended role as an overseer of bureau internal affairs units.
Bureaus told us that their relationship with IAB is limited to merely submitting data into
the IAB automated tracking system. Site inspections by IAB are infrequent, and have not
resulted in providing significant guidance into investigative practice.

Overall, the bureaus have been successful with implementation of the directives; in fact,
four bureaus have implemented all directives assigned to them. Line-item budgeting for
law enforcement has improved, but not uniformly. The originally identified issue remains;
funds designated for certain law enforcement programs can be diverted by managers and
used for other projects. Two bureaus have yet to develop comprehensive and verifiable
staffing models. Finally, the recent mandate to expand the number of NPS seasonal law
enforcement officers directly conflicts with the existing directive to decrease dependence
on their use.




                                               5
                  DIRECTIVES AND FINDINGS
The Department and the bureaus have
                                                                   Implementation Progress
                                                                        Chart Title
implemented a large majority of the                          The Department and Bureaus’ Combined Performance
Secretary’s directives for Law Enforcement
reform. As the chart to the right indicates,                                   4%
                                                                                       13%
when combining their responsibilities, the                                                         Inadequate
Department and the bureaus have                                                                    Progress
implemented 82 percent of directive                                                                Moderate
requirements. Summaries of the progress                             82%                            Progress
made by OLESEM and the individual                                                                  Implemented
bureaus’ on each of the 25 directives are
outlined below, along with
recommendations for further improvement.



        1     The Department should create a new career level Deputy Assistant
              Secretary for Law Enforcement and Security, reporting directly to
              the Assistant Secretary for Policy, Management and Budget.
     
                                                                                                  IMPLEMENTED

This directive has been fully implemented since July 2002. Mr. Larry Parkinson has served
as the DAS-LESEM 2 since the position’s inception.



        2 •   DAS-LESEM, in consultation with the Board of Advisors, draft and
              codify the protocols and procedures for emergency deployment
              efforts.
                                                                                                  IMPLEMENTED

The delegated authority to DAS-LESEM to allocate Department law enforcement resources
during national emergencies, catastrophic/critical incidents, and other significant
situations are now codified in part 212, chapter 17, of the Departmental Manual, which
became effective June 14, 2006. Emergency management protocols and procedures are also
codified in part 900 of the Departmental Manual, which became effective January 4, 2006.
2
 This position was originally created as the Deputy Assistant Secretary for Law Enforcement and Security (DAS-LES).
The position has since changed to the Deputy Assistant Secretary for Law, Enforcement, Security, and Emergency
Management (DAS-LESEM) and will be referred to as the DAS-LESEM throughout this report.



                                                         6
   3  •    OLESEM should be staffed with dedicated and experienced law
           enforcement personnel. The Review Panel recommends the DAS-
           LESEM develop a staffing model that meets the needs of the office.
           Detailed personnel from the bureaus should play an integral
           element of the office's staffing model.
                                                                               MODERATE
                                                                               PROGRESS

As OLESEM’s responsibilities have increased, so has the need for qualified personnel.
Since our 2006 assessment, OLESEM has increased its staff size and now has 58 positions,
13 of which are currently vacant. OLESEM relies heavily on the bureaus and other
agencies for staffing. In fact, OLESEM only funds 41 of its 58 positions, the remaining
positions detailed to OLESEM from the bureaus or are positions funded by other federal
agencies (See Appendices 2 and 3 for organizational charts).

Despite having these additional positions, we share the bureaus’ concern whether OLESEM
staff is being used in the most effective manner for providing adequate policy, guidance,
and oversight. We found less than half of the OLESEM staff is dedicated to policy
development, oversight, and compliance. Twenty of the 58 OLESEM positions are
dedicated to emergency management. Of the 38 remaining law enforcement and security
positions, 6 are vacant and 5 are unfilled bureau detailee positions. It should also be noted
that over the past year, three OLESEM officials were temporarily assigned to the U.S. Park
Police for varying lengths of time, the longest for 11 months. Many of the law enforcement
and security positions reflect the additional responsibilities assumed by OLESEM: Border
and Drug Enforcement coordination and Incident Management Analysis and Reporting
System (IMARS) project management.

According to OLESEM officials, bureau detailees continue to be an integral part of their
organizational structure, adding a bureau perspective to policy development and
providing an avenue of information sharing to and from the bureaus. Like OLESEM, some
of the bureaus find value in the detailee program, stating that it helps keep them informed
on issues driving Department decisions. On the other hand, other bureaus, some of which
are facing staffing shortages, believed that OLESEM is adequately staffed and should
develop a plan to reduce its reliance on detailee positions. Some bureaus argued that
OLESEM has been in existence long enough to establish a plan for hiring permanent
employees and move forward with its own strategic staffing objectives.

While we did not evaluate the detailee program, concerns raised during this assessment
regarding this program warrant further consideration by OLESEM and Department
leadership.



                                              7
                                     Recommendation #1
       OLESEM should review and realign its staff to best address current priorities,
       with specific attention given to achieving policy and oversight responsibilities. In
       addition, senior Department leadership should determine whether OLESEM staff
       should be supplemented with bureau detailees. Bureaus should be held
       accountable for complying with the Department's decision.




      4  •     DAS-LESEM should review and revise the policies and procedures
               which guide the bureaus' interactions with OLESEM. This should
               be done in consultation with the Board of Advisors.   INADEQUATE
                                                                                   PROGRESS


OLESEM has failed to fulfill its duty of issuing policy for Department and bureau law
enforcement and security operations. Policies and procedures are the primary means by
which the Department communicates its standards and expectations for bureau law
enforcement and security programs. Failing to establish these standards erodes the
Department’s ability to measure and hold law enforcement and security programs
accountable for their actions.

Despite the DAS-LESEM’s description of OLESEM as a policy-driven office, has not had
one person continually dedicated to the creation of policy. Instead, OLESEM has assigned
policy development to various individuals throughout the office, resulting in inconsistent
work products. While these authors may have good operational experience, we were told
that their experience has not enabled them to develop broad-based policies for
Departmental programs. The DAS-LESEM acknowledged that this has resulted in poorly
written policy being submitted to the Office of the Solicitor (SOL) for review.

While OLESEM bears the burden of failing to issue policy to law enforcement and security
programs, other Departmental offices contribute to this failure. The Department’s policy
review and surname processes continue to be arduous and excessively lengthy, and
routinely exceed recommended review, clearance, and publication timelines set forth in the
Departmental Manual. 3 We were told that staffing shortages and competing priorities in
the SOL and Office of Planning and Performance Management continue to create log jams
in the policy development process. We were also told that the Department has attempted
to fund a position with SOL dedicated to law enforcement and security issues, but that the
Office of Management and Budget rejected the request each time it was presented.

3
    011 DM 4



                                                 8
OLESEM has only issued two final and two interim security and law enforcement policies.
An additional four policies are in the surnaming process and are nearing completion. This
pace is woefully inadequate, considering that at a minimum 25 additional policies remain
to be revised and issued. Despite OLESEM’s failure to issue policy, the bureaus have
continued to revise their law enforcement and security policies based on OLESEM interim
and draft policies.

Currently, the DAS-LESEM does not have the authority to issue interim policy under his
signature; interim policies must be signed by the Assistant Secretary - Policy, Management,
and Budget, and must go through a surnaming process similar to that for issuing final
policy. Because this process is so lengthy, OLESEM informed us that they are exploring
avenues to receive authority for the DAS-LESEM to issue interim policy.

                                 Recommendation #2
    OLESEM and the Department should work together to expedite and prioritize the
    review and surname process for law enforcement, security, and emergency
    management policies to conform to Departmental Manual guidelines.



                                 Recommendation #3
    The DAS-LESEM should be provided with the authority to issue critical interim
    policy and guidance while awaiting final policy publication in the Department
    Manual.




   5  •   The coordination and review responsibility for law enforcement and 
          security budgets should be formalized as a shared function between 
          DAS‐LESEM and the DAS for Budget and Finance. 
                                                                             IMPLEMENTED

OLESEM has implemented the coordination and review responsibility as this directive
intended. OLESEM provides budget guidance and meets with the individual bureaus
annually to review their law enforcement, security, and emergency management budgets.
According to most of the bureaus, OLESEM has been supportive and operates as an extra
avenue for providing additional funding sources.

While we were told that the guidance provided by OLESEM has been helpful, some bureau
officials also told us that the timing of the budget reviews should be improved.


                                             9
Specifically, these bureaus explained that their individual budgets are typically prepared
and already finalized before they meet with OLESEM.

                                  Recommendation #4

    The DAS-LESEM should take action to coordinate budget reviews at the
    appropriate time to have maximum effectiveness.




   6  •   Each bureau is to establish a senior‐level Director for Law 
          Enforcement (and Security).  When appropriate, the term ʺsecurityʺ 
          should be added to the title.
                                                                              IMPLEMENTED


All of the law enforcement programs established senior-level positions for law enforcement
and security directors. With the exception of NWRS and USPP, these positions are at the
Senior Executive Service (SES) level. NWRS’ Chief, Office of Refuge Law Enforcement, is a
GS-15 position, and USPP’s Chief of Police position is a GS-15 equivalent position.
Previously, it was widely believed that the Chief of Police for the USPP was a SES
equivalent position, which is not the case. The DAS-LESEM is aware of the issue and has
brought it to the attention of the Secretary and NPS Director for future consideration.

                                  Recommendation #5

    The Department and NPS should elevate the USPP Chief of Police to an SES
    equivalent position.




   7 •    Restructure the reporting system for special agents to create line law 
          enforcement authority. 
                                                                              IMPLEMENTED


All applicable law enforcement programs have created reporting systems establishing line
authority for special agents. While USPP does not have special agents, it does have line
authority for all officers.


                                             10
   8 
           For all remaining law enforcement officers and personnel, each
           bureau should prepare a plan to enhance the accountability of field
           law enforcement operations. All non-law enforcement managers of
           law enforcement personnel should successfully complete a
           background investigation to ensure management integrity. All
           non-law enforcement managers of law enforcement personnel shall
           complete “Law Enforcement Training for Supervisors.”
                                                                             IMPLEMENTED

All applicable law enforcement programs (NPS, NWRS, BLM, and BOR) address training,
background investigations, and internal affairs accountability for managers who oversee
law enforcement officers or units. Only NWRS has a written policy implementing this
directive; the other bureaus incorporate their programs as a matter of practice.



   9 •    Develop line-item budgeting for law enforcement activities. The
          Department is currently implementing Activity Based Costing.
                                                          IMPLEMENTED         MODERATE
                                                           (BIA, BOR, FWS,    PROGRESS
                                                           NWRS & USPP)      (BLM AND NPS)

The original intent of this directive was to track law enforcement expenditures to ensure
that these funds were actually applied toward law enforcement activities. Overall, we
found that those bureaus who have fully implemented line-item budgeting have been able
to track their law enforcement expenditures. While BLM and NPS have line-item budgets
for their special agent programs, funding is distributed to the field for their ranger
programs, and the use of those funds becomes uncertain.



 10 •     DAS‐LESEM should control designated Office of National Drug 
          Control Policy (ONDCP) and other special law enforcement funds 
          to exercise formal review and strong oversight over the expenditure 
          of those funds. 
                                                                             IMPLEMENTED




                                            11
Both the Secretary’s directives and the Departmental Manual 4 require OLESEM to control
the bureau’s expenditure of ONDCP funds. However, as a practical matter, OLESEM has
little involvement with coordinating the ONDCP funds for the bureaus. OLESEM officials
told us they are currently working with ONDCP to change this process.

When the directives were first instituted, ONDCP funds were distributed to agencies in
lump-sum payments, and there was little or no control within DOI for these funds. Since
the original directive was established, ONDCP has established a process that channels
funding through the High Intensity Drug Trafficking Area (HIDTA) program to reimburse
approved expenditures. This process provides a level of control and oversight that meets
the intent of the original directive.



     11 
      •       Bureaus should complete an analysis of staffing models and 
              methodologies.                           IMPLEMENTED     MODERATE
                                                             (BIA, BOR, FWS,     PROGRESS
                                                             NWRS & USPP)      (BLM AND NPS)

With the exception of BLM and NPS, the bureaus have staffing models that adequately
address their law enforcement staffing needs. BLM recognizes the need to create a staffing
model and is in the contract process with a vendor to provide a validated staffing model.

NPS has a Visitor Management-Resource Protection Assessment Program (VRAP), which
has been used in conjunction with Law Enforcement Needs Assessments for each park to
determine park staffing requirements. Similar to concerns expressed in our 2006 Progress
Report, we caution NPS that the VRAP model has been heavily criticized and has not been
validated. OLESEM recommended, and we agree, that NPS should properly vet and
validate the VRAP model.

                                   Recommendation #6
       BLM and NPS should develop contemporary, comprehensive, and verifiable
       staffing models within this fiscal year. OLESEM should provide a hightened level
       of oversight to ensure that this is completed.




4
    112 DM 17.2(F).



                                              12
    12 
       •      Each bureau will assess the extent to which correct staffing 
              shortages impact officer safety.  The bureaus and DAS‐LESEM 
              should coordinate efforts to address the identified shortages 
              immediately. 
                                                                                                     IMPLEMENTED

The bureaus continue to improve in assessing the impact of staffing shortages on officer
safety. The bureaus have used various means to improve officer safety, including:
    • hiring additional Park Rangers to assist at border parks;
    • creating tandem patrol teams for public lands along the southwest border;
    • creating “surge teams” for high crime areas;
    • providing better equipment; and
    • hiring civilian staff for critical officer safety support positions such as Force Armorer
       and Safety Officer.

However, officer safety remains a concern and must remain a constant priority within each
bureau.




    13 
     •       Bureaus will reduce dependence on collateral duty and seasonal law 
             enforcement officers.                                    MODERATE
                                                                             IMPLEMENTED
                                                                                 (NWRS)                PROGRESS
                                                                                                          (NPS)

We are encouraged by NWRS’ progress in reducing the number of collateral-duty officers.
The agency reduced the number of these officers from 208 in 2006 to 151 in 2008.
Unfortunately, it should be noted that according to an independent evaluation of the
effectiveness of NWRS, this reduction in collateral-duty officers has not been balanced by
the hiring of full-time equivalent officers. As a result, the report states that “[a]t many
refuges, law enforcement coverage is insufficient to ensure the protection of resources and
the safety of visitors and refuge staff.” 5

As part of the Centennial Initiative, NPS has been tasked by the Secretary to hire an
additional 1,000 seasonal law enforcement officers, directly conflicting with the 2002
directive. We are concerned that full-time law enforcement positions may lapse in order to
achieve the mandated increase in seasonal officers. According to NPS, the mandated

5
 An Independent Evaluation of the Effectiveness of the U.S. Fish and Wildlife Service’s National Wildlife Refuge System,
Management Systems International, June 2008.



                                                          13
increase in seasonal officers was not fully funded and parks are forced to make up the
difference, some of which, we were told, may come from lapsed full-time law enforcement
positions. The preliminary numbers from 2008 reflect a decrease in full-time rangers and
an increase in seasonal rangers, but NPS stated that they will not have the final numbers
until the end of the calendar year.

                                 Recommendation #7

    NPS should not divert funds from full-time law enforcement positions to hire
    seasonal rangers.




 14 •     The Secretary has placed responsibility for security policy
          compliance and oversight with OLESEM.                       MODERATE
                                                                              PROGRESS

Our prior Progress Reports noted that OLESEM had hired an Assistant Director-Security to
provide guidance and oversight of Department and bureau security operations. OLESEM
subsequently hired a second person to assist the Assistant Director with personnel security
issues surrounding the Department-wide implementation of Homeland Security
Presidential Directive Number 12, which deals with the common identification standard
for federal employees and contractors. However, this person was detailed to the U.S. Park
Police in March 2008, to assist with management issues at that agency, effectively leaving
the Assistant Director as the sole person responsible for OLESEM security policy and
oversight duties.

Since our last review, OLESEM has issued some security guidance to the Bureaus, has
conducted on-site security surveys of National Monuments and Icons, and has conducted
security compliance reviews at National Critical Infrastructure dams. Yet, as we reported
in 2006, it still has not conducted comprehensive reviews of bureau security programs.

As mentioned before, added responsibilities and shifting priorities, such as OLESEM’s
required response to various Homeland Security initiatives, along with delays in
Departmental review of proposed policies have continued to impede OLESEM’s ability to
effectively oversee bureau security programs and implement Department-wide security
policies. We were told that external upper-level Homeland Security matters and Homeland
Security Presidential Directives comprise half of the DAS-LESEM’s workload. While we
recognize the importance of this role, this level of external commitment has adversely
impacted OLESEM’s ability to oversee Department security and other core programs.


                                            14
 15 •      The review panel recommends that the National Business Center 
           (NBC) augment its security staff with the appointment of a 
           professional security manager to oversee this effort. 
                                                                                 INADEQUATE
                                                                                  PROGRESS

In 2003, NBC hired a Chief of Security to manage security operations for the Main and
South Interior Buildings. During our 2006 Progress Report, we noted that the Chief of
Security had only a limited security background, and his formal training in physical
security measures was limited to the 10-day physical security training course at FLETC.
We downgraded the progress of this directive because the Chief of Security has had no
additional formal physical security training, since our 2006 report. It should be noted that
we were told the Chief of Security has sought out training, but NBC has denied his training
requests for budgetary purposes. While there are no Department training requirements for
security managers, we believe continued training for the Chief of Security is necessary to
remain proficient on current security trends and industry standards.

                                 Recommendation #8
     OLESEM should develop and implement initial and annual training standards for
     Department and bureau security managers and personnel. In the absence of
     Department-wide standards, NBC should ensure that its Chief of Security receives
     the security training required to achieve professional certification.




 16 
  •       Each bureau will develop a senior‐level, full‐time security manager.
                                                            IMPLEMENTED          MODERATE
                                                          (BIA, BLM, BOR, FWS,   PROGRESS
                                                              NPS & NWRS)          (USPP)


All of the bureaus have established and hired full-time security managers. However, USPP
appointed a Deputy Chief as the Security Manager. The individual has been through only
a basic two week critical infrastructure protection course at FLETC, and has no background
in physical security.

In our 2006 report, we criticized NWRS and NPS for having security managers with limited
to no training or experience in physical security. Since then, NWRS hired a new security
specialist who has an extensive background in physical security and NPS’s security
manager has been through extensive physical security training.



                                             15
  17 •    The responsibility for emergency preparedness should remain with 
          the Office of Managing Risk and Public Safety for the interim. 
          (Superseded) 
                                                                              IMPLEMENTED


In 2002, OLESEM assumed the Department’s emergency management responsibilities.
Since that time, many events, such as avian flu and Hurricane Katrina, have fundamentally
transformed Department’s emergency management functions, causing it to grow in
importance. As such, the program has expanded from a staff of three in 2006 to its current
staff of 20. More recently, in September 2008, DAS-LESEM divided responsibilities
concerning law enforcement and emergency management. The separation of these two
entities provides better efficiency regarding the Department’s approach to disaster training,
response, and mitigation. We endorse this separation, which allows for the streamlined
distribution of critical information among multi-disciplinary participants and centralizes
the Department’s emergency management efforts.



  18 •    All bureaus should act promptly to ensure internal affairs coverage.  
          The OLESEM should establish an internal affairs unit to perform an 
          oversight role and to investigate bureau cases if the bureaus 
          capacity is deemed inadequate.             MODERATE
                                                                              IMPLEMENTED
                                                             PROGRESS            (BUREAUS)
                                                              (OLESEM)

All bureaus have effective internal affairs coverage; however, the role of the OLESEM
Internal Affairs Branch (IAB) has failed to materialize as originally envisioned by the Law
Enforcement Review Panel. In our 2006 assessment, the DAS-LESEM told us that the IAB
was “not where they need to be,” noting that his goal was to develop a proactive unit that
is capable of providing oversight, guidance, and support for bureau internal affairs
programs. Now, two years later, we find that little has changed in IAB.

IAB is solely staffed by a branch chief who has also been the acting Assistant Director,
Professional Responsibility and Compliance, for the past ten months, dividing time
between both roles. The IAB branch chief is responsible for monitoring the automated case
management system that tracks the status of bureau internal affairs cases. The IAB branch
chief is also responsible for periodically reviewing bureau internal affairs programs and for
coordinating the Department’s Serious Incident Review Group (SIRG).




                                             16
Some of the bureaus stated that they do not recognize the IAB as a valuable investigative
resource and questioned its role. IAB was criticized by the bureaus for its lack of oversight,
coordination, and support. We were told that bureau internal affairs units have infrequent
contact with the IAB branch chief. While IAB has reviewed two bureau internal affairs
offices, we were told that the bureaus did not receive a report on the results of the IAB
review. In addition, IABs attempts to organize a Department-wide training program have
not gotten off the ground.

Over time, and in increasing frequency, bureaus have sought and received guidance from
OIG staff regarding internal affairs cases and procedures instead of IAB. This open line of
communication has become the preferred process for the bureaus to receive guidance and
investigative assistance.

                                  Recommendation #9
    OLESEM should clarify the role of its Internal Affairs Branch and take a more
    proactive role in providing guidance and oversight to bureau internal affairs
    programs.




  19 
     •    OLESEM is to revise the Department Manual provisions addressing 
          internal law enforcement incident reporting and resulting 
          investigations. 
                                                                               IMPLEMENTED


Since our 2006 review, OLESEM has disseminated interim policy and guidance addressing
internal law enforcement incident reporting and subsequent internal review. Furthermore,
we learned that each bureau has policy and formalized procedures to report significant law
enforcement related incidents. OLESEM and the bureaus have continued the practice of
reviewing law enforcement related incidents through the SIRG and bureau Boards of
Review.



  20 
   •      DAS-LESEM should work with the Office of Human Resources on
          the development of recruitment strategies to increase the diversity
          of the law enforcement workforce.
                                                                               IMPLEMENTED




                                              17
OLESEM continues to assist the bureaus in promoting diversity among the DOI law
enforcement programs. Since our 2006 review, OLESEM has developed a law enforcement
website to attract a larger group of candidates. The majority of bureaus have increased
efforts to recruit and retain a diverse law enforcement workforce. Although the majority of
bureaus are taking steps to recruit a diverse workforce, their efforts aren’t always
successful because the diversity pool of candidates can be very shallow, especially in
remote areas.

Our 2006 report recognized the progress of law enforcement’s gender diversity statistics.
While current DOI data reflects a reversal of the 2005 increase in the female workforce,
improvements in ethnic diversity reflects significant progress, as almost all diversity
groups show an increase across the board.



  21 
   •      OLESEM should research the background investigation process and
          determine what can be done to decrease the time it takes to hire
          applicants.
                                                                               IMPLEMENTED


The bureaus stated that noticeable improvements have occurred in reducing the time
needed to hire law enforcement candidates. Some bureaus have hired additional
adjudicators to streamline the hiring process. To further accelerate the process in specific
circumstances, OLESEM has authority to approve hiring waivers for new employees.
These waivers are conditional upon the successful adjudication of a full background
investigation. Many of the bureaus agreed that their ability to use waivers has been
beneficial.

Although the use of the Office of Personnel Management (OPM) automated background
investigation program has been helpful, the largest obstacle facing some of the bureaus
continues to be the length of time OPM takes to complete background investigations.



  22 
   •      DAS-LESEM should develop specific training recommendations
          with reporting and evaluation mechanisms that focus on consistent
          training for full-time, collateral and seasonal officers.
                                                                                IMPLEMENTED

The Land Management Police Training Program (LMPTP) at FLETC is the integrated basic



                                              18
training program for the majority of DOI uniformed law enforcement officers. New BIA
uniformed officers attend their own basic training academy at FLETC. Starting in 2009,
USPP will migrate to the Uniformed Police Training Program at FLETC, which is better
suited to address their operational needs. All special agents attend the FLETC Criminal
Investigator Training Program.

NPS seasonal law enforcement officers do not attend LMPTP. NPS continues to rely on
nine colleges across the country to provide training for seasonal law enforcement officers.
Historically, these training academies have been an object of concern. We were told that
NPS staff has visited each academy and reviewed training standards within the past 3
years. Furthermore, the current syllabus used for the seasonal training program is dated
2002 and is scheduled to be revised in February 2009 to mirror the LMPTP program. We
were encouraged to learn that OLESEM’s training coordinator has also visited two seasonal
training academies and is reviewing their curricula.

Note: Following our assessment of the U.S. Park Police, the Secretary directed that all
bureaus report quarterly to OLESEM on the status of officers’ in-service training and other
requirements.




 23 
  •       OLESEM should develop a consistent Department-wide centralized
          records system.                                      INADEQUATE
                                                                               PROGRESS

The development of IMARS has faced repeated roadblocks preventing its implementation.
In our 2006 review, we noted that there were delays in the IMARS contract solicitation
process. Since then, repeated delays and excessive cost have caused some bureaus to lose
confidence in the IMARS program and question whether it will ever be operational.
OLESEM now estimates IMARS will be completed in late 2009 or early 2010.

Due to concerns raised, IMARS was the subject of a separate OIG review. The review
found that the IMARS project lacks clear authority and leadership. Although OLESEM
acquired responsibility for the project from NPS in 2007, and hired staff to oversee IMARS
development, OLESEM still lacks the authority to make final decisions on the project. In
addition, the review found that the project lacks the resources required to achieve
successful implementation.

                                Recommendation #10
   OLESEM should be given sole responsibility and authority for the IMARS project
   and devote adequate resources to meet the needs of the project.




                                             19
 24 •     DAS‐LESEM should work with the DAS for Performance 
          Management to develop performance goals and outcome measures. 
                                                                            IMPLEMENTED


As noted in previous reports, strategic plans and outcome measures for law enforcement
and security programs have been incorporated into the Department’s strategic plan.
OLESEM has also created performance goals and measures for Department-wide law
enforcement and security programs to support the Department’s strategic plan.




 25 
       • DAS‐LESEM should work with the Office of the Solicitor to 
         coordinate the revision of the interagency cross designation 
         agreements. 
                                                                           IMPLEMENTED

The Interagency Cross Designation Agreement, first created on June 17, 2004, was revised
on July 17, 2007, to include OLESEM as a party to the Agreement. OLESEM collaborated
with SOL to implement this change.




                                            20
                   RECOMMENDATIONS
1. OLESEM should review and realign its staff to best address current priorities, with
   specific attention given to achieving policy and oversight responsibilities. In
   addition, senior Department leadership should determine whether OLESEM staff
   should be supplemented with bureau detailees. Bureaus should be held accountable
   for complying with the Department’s decision.

2. OLESEM and the Department should work together to expedite and prioritize the
   review and surname processes for law enforcement, security, and emergency
   management policies to conform to Departmental Manual guidelines.

3. The DAS-LESEM should be provided with the authority to issue critical interim
   policy and guidance while awaiting final policy publication in the Departmental
   Manual.

4. The DAS-LESEM should take action to coordinate budget reviews at the appropriate
   time to have maximum effectiveness.

5. The Department and NPS should elevate the USPP Chief of Police to an SES
   equivalent position.

6. BLM and NPS should develop contemporary, comprehensive, and verifiable staffing
   models within this fiscal year. OLESEM should provide a heightened level of
   oversight to ensure that this is completed.

7. NPS should not divert funds from full-time law enforcement positions to hire
   seasonal rangers.

8. OLESEM should develop and implement initial and annual training standards for
   Department and bureau security managers and personnel. In the absence of
   Department-wide standards, NBC should ensure that its Chief of Security receives
   the security training required to achieve professional certification.

9. OLESEM should clarify the role of its Internal Affairs Branch and take a more
   proactive role in providing guidance and oversight to bureau internal affairs
   programs.

10. OLESEM should be given sole responsibility and authority for the IMARS project
    and devote adequate resources to meet the needs of the project.



                                         21
                                              APPENDIX 1
                           STATUS OF THE SECRETARY'S DIRECTIVES
                                OLESEM         BIA         BLM        BOR        FWS        NPS            NWRS    USPP
        DIRECTIVE 

1 ‐ Create DAS‐LES                                                                                      

2 ‐ Emergency Protocols                                                                                 

3 ‐ OLES Staffing                                                                                       

4 ‐ OLES Policy w/ Bureaus                                                                              

5 ‐ Budget Coordinator                                                                                  

6 ‐ Senior LE Director                                                                                  

7 ‐ Line Authority 1811                                                                                 

8 ‐ Non‐LE Mgr                                                                                          

9 ‐ Line‐Item Budgets                                                                                   

10 ‐ ONDCP Funding                                                                                      

11 ‐ Staffing Model                                                                                     

12 ‐ Officer Safety                                                                                     

13 ‐ Seasonal & Collateral                                                                              

14 ‐ Oversight of Security                                                                              

15 ‐ NBC – MIB Security                                                                                 

16 ‐ Bureau Security                                                                                    

17 ‐ Emergency                                                                                          

18 ‐ Internal Affairs                                                                                   

19 ‐ LE Incident Reporting                                                                              

20 ‐ Recruitment ‐ Diversity                                                                            

21 ‐ Research Backgrounds                                                                               
22 ‐ Training                                                                                           
23 ‐ Centralized Records                                                                                

24 ‐ Performance Goals                                                                                  

25 ‐ Cross Delegation                                                                                   

                                              Inadequate Progress      Moderate Progress           Implemented 




                                                                 22
                   APPENDIX 2
OFFICE OF LAW ENFORCEMENT AND SECURITY ORGANIZATION CHART




                           23
                APPENDIX 3
OFFICE OF EMERGENCY MANAGEMENT ORGANIZATION CHART




                       24
                          How to Report
              Fraud, Waste, Abuse and Mismanagement

Fraud, waste, and abuse in government are the concern of everyone, Office of
Inspector General staff, departmental employees, and the general public. We
actively solicit allegations of any inefficient and wasteful practices, fraud, and abuse
related to departmental or Insular Area programs and operations. You can report
allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 4428-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free                         800-424-5081
              Washington Metro Area                     703-487-5435
              Fax                                       703-487-5402

Internet:     http://www.doioig.gov/form/hotlinecmp_form.php




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240

                                        www.doi.gov
                                       www.doioig.gov
